                    DEPARTivlENT OF H EALTH AND H UMAJ.'{ S ERVICE~


               OFFICE OF INSPECTOR GENERAL
                                    WAS!l!NC;T ON, DC 20201




                                             MAY 0 3 2013
TO: 	          Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services
                    /S/
FROM:          Stuart Wright.
               Deputy Inspector General
                 for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Medicare Payments for Part B Claims with
           G Modifiers, OEI-02-10-00160


This memorandum report describes Medicare payments for Part B claims with
G modifiers and how contractors process claims with these modifiers. Providers and
suppliers use four G modifiers to indicate why claims may not be covered by Medicare.
Providers file such claims when they need to document the use of services or items, or to
provide information that may be required by other payers. Providers and suppliers use
GA and GZ modifiers to indicate that they expect Medicare to deny the service or item as
not "reasonable and necessary." For example, they may use these modifiers when they
are unsure whether a beneficiary has reached a frequency limit that applies to certain
services or items. Providers and suppliers use GY and GX modifiers to indicate that
services or items are not covered by Medicare.

SUMMARY

In 2011, Medicare paid nearly $744 million for Part B claims with G modifiers that
providers expected to be denied as not reasonable and necessary or as not being covered
by Medicare . We found vulnerabilities in how Medicare pays for these claims. When
processing claims, contractors often do not consider the modifiers that providers use to
indicate that they expect the services or items to be denied as not reasonable and
necessary. Contractors also do not always consider the modifiers that providers use to
indicate that services or items are not covered by Medicare. Although contractors have
checks that affect some of these claims, such as determining whether the services and
items met Medicare frequency limitations, they do not specifically check for claims for
which providers expect not to be paid. Further, we found that from 2002 to 2011,
Medicare paid $4.1 million for claims that included inappropriate combinations of
G modifiers.



Medicare Payments for Part B Claims with G Modifiers (OEI-02-10-00160)
Page 2 – Marilyn Tavenner


BACKGROUND

Medicare Part B covers a variety of services and items, including physician office visits,
outpatient procedures, laboratory tests, and durable medical equipment, prosthetics,
orthotics, and supplies (DMEPOS). Covered services and items must be reasonable and
necessary for the diagnosis or treatment of illness or injury, or to improve the functioning
of a malformed body part. 1 As discussed in more detail below, providers and suppliers
use G modifiers to alert Medicare when they bill for services or items that they expect to
be denied as either not reasonable and necessary (GA and GZ modifiers) or because they
are not covered by Medicare (GY and GX modifiers).

In a 2009 report, the Office of Inspector General (OIG) raised concerns about the use of
GA and GZ modifiers and about Medicare inappropriately paying for some claims with
these modifiers. The report looked at claims for pressure-reducing support surfaces and
found that Medicare paid for 72 percent of all pressure-reducing support surface claims
with GA or GZ modifiers. 2 This amounted to over $4 million in potentially inappropriate
payments.

GA and GZ Modifiers
Providers and suppliers use GA and GZ modifiers to bill for certain services or items that
they expect to be denied as not reasonable and necessary. 3 They may use these modifiers
when they are uncertain about whether a claim should be paid. For example, a provider
may not know whether a beneficiary already had a particular laboratory test that
Medicare covers only once a year 4 or a supplier may suspect that the beneficiary already
has the item it is providing. 5 Providers and suppliers may also use these modifiers when
they are certain that the claim should not be paid. For example, a provider may know
that Medicare does not pay for a particular test for a beneficiary with a given condition,
but because the beneficiary requests it, the provider submits the claim to Medicare for a
decision. 6 The beneficiary may need Medicare to deny the claim so that it can be
submitted to the beneficiary’s secondary insurance.



1
  Social Security Act § 1862(a)(1)(A), 42 U.S.C. § 1395y(a)(1)(A).
2
  OIG, Vulnerabilities in Medicare Payments for Pressure Reducing Support Surfaces, OEI-02-07-00421,
December 2009.
3
  CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 23, 20.9.1.1(E). The requirements
concerning these modifiers also apply to Part B claims submitted by Part A providers. See CMS, Medicare
Claims Processing Manual, Pub. No. 100-04, ch.1, § 60.4.2.
4
  Medicare may not pay on a claim if it represents a test that exceeds a frequency limit. See CMS, Advance
Beneficiary Notice of Noncoverage (ABN): Part A and Part B, May 2012. Accessed at
http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network -
MLN/MLNProducts/downloads/abn_booklet_icn006266.pdf on April 1, 2013.
5
  See e.g., Noridian Administrative Services LLC, “Proper Use of GY, GA, and GZ Modifiers,”
Happenings, August 2007. Accessed at
https://www.noridianmedicare.com/dme/news/bulletins/happenings/issue6_aug07.pdf on February 14,
2011.
6
  This type of claim is called a demand bill. See CMS, Medicare Claims Processing Manual,
Pub. No. 100-04, ch. 1, § 60.3.2(B).

Medicare Payments for Part B Claims with G Modifiers (OEI-02-10-00160)
Page 3 – Marilyn Tavenner


GA Modifiers: Beginning in January 2002, Medicare required providers and suppliers to
use the GA modifier for claims they expect to be denied as not reasonable and necessary
for which they have on file an Advance Beneficiary Notice (ABN) signed by the
beneficiary. One of the purposes of the ABN is to inform the beneficiary that Medicare
certainly or probably will not pay for the service or item on that occasion. The
GA modifier may be used only if a beneficiary signed an ABN indicating that he or she
accepts liability for the cost of the service or item if Medicare does not pay for it.
Medicare prohibits the routine use of ABNs. However, it does allow for certain
exceptions, such as when a service or item has a frequency limit on coverage. 7 For
example, laboratories may routinely use ABNs because Medicare places frequency
limitations on many laboratory services and laboratories may not be able to determine
whether a beneficiary has already exceeded the limit for a test.

GZ Modifiers: Beginning in January 2002, Medicare required providers and suppliers to
use the GZ modifier for claims they expect to be denied as not reasonable and necessary
for which they do not have an ABN on file. 8 In these cases, if Medicare denies the claim
as not reasonable and necessary, the beneficiary cannot be held liable for the cost of the
service or item. Table 1 provides the definitions of GA and GZ modifiers for Part B
claims.

Table 1: Definitions of GA and GZ Modifiers for Part B Claims

    Modifier                                                Definition

       GA            Service or item is not considered reasonable and necessary; ABN is on file

       GZ            Service or item is not considered reasonable and necessary; ABN is not on file

Source: CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 23, § 20.9.1.1(E).




GY and GX Modifiers
Beginning in January 2002, Medicare allowed providers and suppliers to use the
GY modifier to indicate that a service or item is not covered by Medicare, either because
it is statutorily excluded (e.g., hearing aids) or does not meet the definition of any
Medicare benefit (e.g., surgical dressings that are used to clean or protect intact skin). 9
Because Medicare does not cover these services or items, the beneficiary is liable for
payment. No ABN is required with the GY modifier. The provider or supplier may use
this modifier when a beneficiary needs Medicare to deny the claim so that it can be
submitted to the beneficiary’s secondary insurance.

In April 2010, Medicare established the GX modifier. It indicates that a service or item is
statutorily excluded and that the provider or supplier voluntarily gave the beneficiary an



7
  CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 30, §§ 40.3.6 and 40.3.6.4(C).
8
  CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 23, § 20.9.1.1(E).
9
  CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 23, § 20.9.1.1(E). The requirements
concerning these modifiers also apply to Part B claims submitted by Part A providers. See CMS, Medicare
Claims Processing Manual, Pub. No. 100-04, ch.1, § 60.4.2.

Medicare Payments for Part B Claims with G Modifiers (OEI-02-10-00160)
Page 4 – Marilyn Tavenner


ABN. 10 In 2010, Medicare provided instructions to contractors to automatically deny
Part A claims with the GX modifier for noncovered charges. 11 Medicare has not issued
similar instructions for Part B claims. Table 2 provides the definitions of GY and
GX modifiers.

Table 2: Definitions of GY and GX Modifiers for Part B Claims

      Modifier                                             Definition
                     Service or item is statutorily excluded or does not meet the definition of any
        GY           Medicare benefit; ABN is not required.
                     Service or item is statutorily excluded and the provider or supplier voluntarily
        GX           notified the beneficiary with an ABN.

Source: CMS Program Memorandum, CR 1820; CMS, Medicare Claims Processing Manual, Pub. No. 100-04,
ch. 23, § 20.9.1.1(E).


Medicare Part B Claims Processing
CMS contracts with Medicare Administrative Contractors (MAC) to process and pay
Part B claims. 12 These contractors also apply claims processing “edits”—i.e., system
checks—to prevent improper payments; conduct medical reviews and data analyses of
claims; and conduct outreach and education to providers. Edits flag a claim for automatic
denial or for contractor review to ensure that the claim is appropriate.

CMS provides contractors with various instructions about how to process claims with
G modifiers. CMS required contractors to automatically deny claims with GZ modifiers
for services or items that were provided on or after July 1, 2011. 13 Currently, CMS does
not have any specific instructions for claims with GA modifiers, except for those
submitted with both a GA and GZ modifier; CMS instructs contractors to treat such
claims as unprocessable. 14 For claims with GY modifiers, CMS allows contractors to
deny these claims at their discretion. Finally, CMS has not issued instructions for
processing Part B claims with GX modifiers. See Table 3.

Table 3: Processing Instructions for Part B Claims With G Modifiers

     Modifier                                      Processing Instructions

                 Claims with both a GA and a GZ modifier for the same service or item should be treated
      GA         as unprocessable.

      GZ         Effective July 1, 2011, GZ claims must be automatically denied.

                 Effective January 2002, claims with GY modifiers may be automatically denied at the
      GY         discretion of the MACs.
      GX         No instructions.

Source: CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 23, § 20.9.1.1(E)(5) and (F).



10
   CMS, CR 6563, Transmittal 1921, Billing for Services Related to Voluntary Uses of Advanced
Beneficiary Notices of Noncoverage (ABNs), February 19, 2010.
11
   Ibid., Requirement Number 6563.5.
12
   During the period of our review, CMS was transitioning the claims processing workload of other
contractors—such as carriers and fiscal intermediaries—to the MACs.
13
   CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 23, § 20.9.1.1(F).
14
   Ibid., ch. 1, § 20.9.1.1(E)(5).

Medicare Payments for Part B Claims with G Modifiers (OEI-02-10-00160)
Page 5 – Marilyn Tavenner




METHODOLOGY

This study is based on an analysis of all Part B claims, including DMEPOS claims, with
GA, GZ, GX, and GY modifiers for calendar year 2011. It is also based on structured
interviews with staff at CMS and selected claims processing contractors.

Analysis of Part B claims. Using CMS’s National Claims History File and Standard
Analytical File, we analyzed all Part B claims with GA, GZ, GX, or GY modifiers from
2011. 15 We determined the number of claims with each of these modifiers, the number
and percentage of these claims that Medicare paid, and the total amount Medicare paid
for these claims. We also analyzed the services or items that were billed on these claims.
We determined the types of services or items that had the largest numbers of paid claims
and the amounts Medicare paid for each of these services or items.

Next, we analyzed the number of paid claims that included inappropriate combinations of
G modifiers. We did this analysis for all Part B claims with GA, GZ, GX, or
GY modifiers from 2002 to 2011. We looked for combinations that represent
inappropriate scenarios, such as when one modifier indicates that a service or item is not
reasonable and necessary and the other modifier indicates that Medicare does not cover
the service or item. For the purposes of this report, we use “providers” to refer to both
providers and suppliers.

Interviews with CMS staff and selected contractors. We conducted structured
interviews with staff at CMS and selected claims processing contractors about how they
use G modifiers. We also asked staff at each contractor whether they have any claims
processing edits specific to claims with G modifiers and under what circumstances they
review these claims. During the period of our review, CMS was transitioning the claims
processing workload of other contractors, called carriers, to the MACs. For this review,
we interviewed staff at the 13 MACs; these contractors processed 78 percent of all paid
2011 claims with G modifiers. 16 We conducted these interviews in September 2011.

Standards
This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation approved by the Council of the Inspectors General on Integrity and
Efficiency.




15
   All analyses for GX are for the period from April 1, 2010—the date the GX modifier became effective—
to December 31, 2011.
16
   The carriers processed the remaining 22 percent of claims.

Medicare Payments for Part B Claims with G Modifiers (OEI-02-10-00160)
Page 6 – Marilyn Tavenner


RESULTS

In 2011, Medicare paid nearly $744 million for Part B claims that providers
expected to be denied as not reasonable and necessary or as not being covered by
Medicare
Medicare paid for 16.5 million Part B claims with GA, GZ, GX, and GY modifiers. Most
of these claims (98 percent) were submitted with GA modifiers. Another 2 percent of
claims were submitted with GZ modifiers. Less than 1 percent of claims were submitted
with GY and GX modifiers. See Table 4.

Table 4: Part B Claims With G Modifiers, 2011

                 Number of Paid   Percentage of Paid Claims
 Modifier               Claims             With G Modifiers   Total Amount Paid
GA                   16,165,721                      97.7%          $727,224,448
GZ                      352,735                       2.1%           $14,240,381
GY                        9,081                       0.1%            $1,043,755
GX                       16,914                       0.1%            $1,360,584

     Total           16,544,451                      100%           $743,869,168




Medicare Payments for Part B Claims with G Modifiers (OEI-02-10-00160)
Page 7 – Marilyn Tavenner


In contrast to their processing of GA modifiers, almost all contractors reported having
edits specific to GZ modifiers. Providers use GZ modifiers to indicate that they expect
Medicare to deny a service or item as not reasonable and necessary and that they do not
have an ABN on file. As previously noted, beginning in July 2011, CMS required
contractors to automatically deny claims with GZ modifiers. While 12 contractors that
we interviewed reported having edits to automatically deny claims with GZ modifiers,
the remaining contractor did not. This contractor noted that it had other edits that affect
some claims with GZ modifiers, such as edits to check that services and items met
Medicare coverage requirements, but that it did not automatically deny all claims with
GZ modifiers, as required.

In 2011, Medicare paid for 26 percent of claims submitted with GZ modifiers, totaling
$14.2 million. Almost all of these claims were for services or items provided before
July 2011. 18 As noted previously, CMS required contractors to automatically deny
claims with GZ modifiers for service or items provided on or after July 1, 2011. About
three-quarters of the paid claims with GZ modifiers were for laboratory tests.

Contractors also do not always consider modifiers that providers use to indicate that
services or items are not covered by Medicare
Providers use GY modifiers to indicate that either a service or item is statutorily excluded
(e.g., eyeglasses) or that it does not meet the definition of any Medicare benefit (e.g.,
surgical dressings that are used to clean or protect intact skin rather than to cover an
actual wound). Medicare gives contractors the discretion to automatically deny claims
with GY modifiers. Eleven of the thirteen contractors we interviewed automatically
denied these claims, while two contractors did not. One of these contractors reported
that, instead of automatic denial, it had an edit in place that flags these claims for review.
The other contractor reported that it had other edits that affect some claims with
GY modifiers, such as edits to check that services and items met Medicare coverage
requirements.

In 2011, Medicare paid for less than 1 percent of claims with GY modifiers, totaling
$1 million. As shown in Table 4, the majority of paid claims with GY modifiers
(87 percent) were for DMEPOS. Most of these claims were for accessories for
prosthetics and orthotic devices. The next most common claims with GY modifiers were
for enteral and parenteral nutrition; ambulance services; and drugs, such as vitamin B12
injections.




18
  CMS paid for 0.10 percent of GZ claims for services or items provided on or after July 1, 2011, totaling
$66,441 in payments.

Medicare Payments for Part B Claims with G Modifiers (OEI-02-10-00160)
Page 8 – Marilyn Tavenner

Table 5: Top Categories of Paid Part B Services and Items With GY Modifiers, 2011

                                                      Number of Paid            Percentage of Paid
                                                         Claims with                  Claims with          Total Amount
 Service or Item Category                               GY Modifiers                 GY Modifiers                   Paid
                                                               7,892                          87%               $624,560
 Durable Medical Equipment,
 Prosthetics, Orthotics, and Supplies
                                                                     783                            9%           $251,067
 Enteral and Parenteral Nutrition
                                                                     177                            2%             $30,478
 Ambulance
 Drugs                                                               130                            1%           $108,729
 (e.g., certain injections, including
 vitamin B12 and Ranibizumab)
 Other Services and Items*                                             99                           1%             $28,920

     Source: OIG analysis of CMS claims data, 2012.
     * This includes several service and item categories that each accounted for 0.1 percent or less of all paid claims with GY modifiers.


Providers use GX modifiers to indicate that the service or item is statutorily not covered
by Medicare and they voluntarily notified the beneficiary with an ABN that he or she is
liable for the claim. Medicare established the GX modifier in April 2010 for Part A
claims. Medicare has not given instructions to contractors on how to process Part B
claims with the GX modifier. 19

In 2011, Medicare paid for 11 percent of claims submitted with GX modifiers, totaling
$1.3 million.20 In 2011, almost a third of the paid claims with GX modifiers were for
imaging services, while 21 percent were for laboratory tests. Another 13 percent were for
chiropractic services.

Further, Medicare paid $4.1 million for Part B claims that included inappropriate
combinations of G modifiers from 2002 to 2011
With the exception of a GX modifier paired with a GY modifier, all other combinations
of G modifiers on the same claim are inappropriate. From 2002 to 2011, Medicare paid
$4.1 million for claims submitted with inappropriate G modifier combinations. Claims
that contained both a GA and GY modifier made up the vast majority of these claims,
totaling $3.9 million in payments. Claims with this combination indicate that the
provider expects that the service or item is not reasonable and necessary and that it is not
covered by Medicare.

Medicare paid $89,973 for claims with the combination of a GA and GZ modifier.
Including both modifiers is contradictory and indicates that the provider expects that
claim to be denied as not reasonable and necessary and either provided an ABN (GA) or
did not provide an ABN (GZ). Because contractors must automatically deny claims that
include both GA and GZ modifiers, it is unclear why Medicare paid for these claims.


19
   CMS instructs contractors to automatically deny Part A claims with GX modifiers. See Requirement
Number 6563.5 in CMS, CR 6563, Transmittal 1921, Billing for Services Related to Voluntary Uses of
Advanced Beneficiary Notices of Noncoverage (ABNs), February 19, 2010.
20
   This only includes Part B claims submitted with GX modifiers for service dates on or after April 1, 2010,
the date CMS first allowed providers to use the GX modifier under its current definition.

Medicare Payments for Part B Claims with G Modifiers (OEI-02-10-00160)
Page 9 – Marilyn Tavenner


CONCLUSION

This memorandum report describes Medicare payments for Part B claims with
G modifiers and how contractors use these modifiers in their claims processing.

In 2011, Medicare paid nearly $744 million for Part B claims with G modifiers. We
found that vulnerabilities exist in how Medicare pays for these claims. When processing
claims, contractors often do not consider the modifiers that providers use to indicate that
they expect the services or items to be denied as not reasonable and necessary.
Contractors also do not always consider the modifiers that providers use to indicate that
services or items are not covered by Medicare. Although contractors have checks that
affect some of these claims, such as determining whether the services and items met
Medicare frequency limitations, they do not specifically check for claims providers
expect not to be paid. Further, we found that Medicare paid $4.1 million for claims that
included inappropriate combinations of G modifiers from 2002 to 2011.

CMS needs to address the vulnerabilities presented in this report. We are aware that
CMS developed a GU modifier for providers to use on claims for items and services for
which the routine use of ABNs is appropriate, such as for services that are subject to
frequency limitations. This is one way to address the problem in that it would allow
providers to use the GA modifier solely for other items and services that they expect to be
denied. CMS would then need to instruct contractors to automatically deny or review
claims with GA modifiers before paying them. To date, however, CMS has not issued
any instructions about the GU modifier or how contractors should process these claims.
CMS needs to either issue such instructions or develop other methods of addressing these
program vulnerabilities.

In addition, CMS needs to ensure that all contractors are following its instructions to
automatically deny claims with GZ modifiers. CMS also needs to instruct contractors to
automatically deny claims with GY modifiers and ensure that contractors follow these
instructions. Further, CMS should decide whether to implement the GX modifier for
Part B claims, since providers are already using it. Lastly, CMS should ensure that
contractors do not pay for claims with inappropriate combinations of G modifiers. OIG
will continue to monitor claims with G modifiers and will undertake a review in the
future if it appears that CMS has not addressed the problems presented in this report.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-02-10-00160 in all correspondence.




Medicare Payments for Part B Claims with G Modifiers (OEI-02-10-00160)
APPENDIX A

Categories of Paid Part B Services and Items with GA Modifiers, 2011

                                            Number of Paid Claims               Percentage of Paid            Total Amount
   Service or Item Category                    with GA Modifiers          Claims with GA Modifiers                    Paid
 Laboratory tests                                          8,321,058                              51.5%       $125,730,915
 Chiropractic                                              2,420,242                              15.0%        $78,382,437
 Standard imaging                                          1,157,186                               7.2%        $97,088,523
 Minor procedures                                          1,065,797                               6.6%        $54,151,802
 Office visits                                               728,031                               4.5%        $38,226,312
 Other drugs                                                 448,512                               2.8%        $85,072,111
 Other tests                                                 398,379                               2.5%        $18,110,098
 Other durable medical equipment
 (DME)                                                       210,823                               1.3%        $20,278,913
 Echography/ultrasonography                                  198,300                               1.2%        $29,801,792
 Immunizations/vaccinations                                  184,297                               1.1%         $4,187,908
 Prosthetic/orthotic devices                                 173,895                               1.1%        $29,453,648
 Ambulatory procedures                                       143,505                               0.9%        $10,166,348
 Advanced imaging                                            142,215                               0.9%        $54,802,485
 Specialist                                                  122,787                               0.8%        $11,393,247
 Eye procedure                                               105,538                               0.7%        $16,944,745
 Wheelchairs                                                   78,337                              0.5%         $8,083,403
 Endoscopy                                                     58,991                              0.4%        $16,502,566
 Oxygen and supplies                                           41,824                              0.3%         $4,801,681
 Imaging/procedure                                             33,978                              0.2%         $1,872,673
 Hospital beds                                                 23,859                              0.2%         $ 2,473,447
 Oncology                                                      13,555                              0.1%         $1,170,745
 Anesthesia                                                    12,346                              0.1%         $1,740,967
 Other                                                         12,403                              0.1%           $827,033
 Ambulance                                                     11,921                              0.1%         $2,499,763
 Medical/surgical supplies                                     11,633                              0.1%           $694,633
 Chemotherapy                                                  10,374                              0.1%         $2,775,061
 Enteral and parenteral                                         9,729                              0.1%         $3,710,177
 Hospital visit                                                 6,575                              0.0%           $751,710
 Undefined codes                                                5,186                              0.0%           $535,047
 Major procedure                                                6,393                              0.0%         $4,233,264
 Drugs administered through DME                                 3,875                              0.0%          $ 316,977
 Dialysis services                                              1,381                              0.0%           $181,084
 Nursing home visit                                             1,480                              0.0%           $140,068
 Home visit                                                     1,268                              0.0%           $116,189
 Emergency room visit                                              47                              0.0%             $6,505
 Hearing and speech services                                        1                              0.0%               $171
     Total                                                16,165,721                             100%*        $727,224,448
Source: Office of Inspector General analysis of Centers for Medicare & Medicaid Services claims data, 2012.

*The rows do not sum to the total due to rounding.




OEI-02-10-00160                  Medicare Payments for Part B Claims with G Modifiers                                         10
